<html>
<title> - A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 2 OF 4)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-74]
 
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 2 OF 4)

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 18, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                     U.S. GOVERNMENT PRINTING OFFICE
38-757 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  


               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                John Needham, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, July 18, 2007, A Third Way: Alternatives for Iraq's 
  Future (Part 2 of 4)...........................................     1

Appendix:

Wednesday, July 18, 2007.........................................    31
                              ----------                              

                        WEDNESDAY, JULY 18, 2007
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 2 OF 4)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Byman, Dr. Daniel L., Director, Center for Peace and Security 
  Studies of the Edmund A. Walsh School of Foreign Service, 
  Georgetown University, Senior Fellow, Saban Center for Middle 
  East Policy, Brookings Institution.............................     3

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    37
    Byman, Dr. Daniel L..........................................    40
    Snyder, Hon. Vic.............................................    35

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 2 OF 4)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                          Washington, DC, Wednesday, July 18, 2007.
    The subcommittee met, pursuant to call, at 3:06 p.m. in 
room 2118, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    Dr. Byman, you may be aware we are anticipating some votes 
sometime between now and 3:30. It will be a fairly long number 
of votes, although it may be expedited. So what we will try to 
do is get through my opening statement, Mr. Akin's and perhaps 
your opening statement and see where we go from there. And you 
have been through this before, and we will probably ask you to 
hang around if you can, and we will come back after votes.
    This hearing today is a second in a series of four that 
this subcommittee is going to do on looking at other 
alternatives as we look ahead in Iraq.
    Last week, we had General Wes Clark, Max Boot and Dr. 
Muqtedar Kahn and had a very robust discussion. I think the 
members enjoyed it. I think we learned a lot. We tried to get 
beyond what we see as a polarization of the current debate that 
occurs a lot in Washington but throughout the country to get 
beyond, frankly, some of the simple statements and on to some 
of the more nuanced challenges that the country has.
    We are pleased to have with us today Dr. Dan Byman. He is 
the Associate Professor and Director of the Security Studies 
Program at the Center for Peace and Security Studies at 
Georgetown University's Edmund A. Walsh School of Foreign 
Service. He holds a joint appointment with the Georgetown 
Department of Government, is also Senior Fellow at the Saban 
Center for Middle East Policy at the Brookings Institution.
    Dr. Byman has served as a professional staff member with 
both the National Commission on Terrorist Attacks on the United 
States, 9/11 Commission and the Joint 9/11 Inquiry staff of the 
House and Senate Intelligence Committee. He has also worked as 
the Research Director of the Center for Middle East Public 
Policy at the RAND Corporation and as an analyst for the U.S. 
Intelligence Committee.
    Dr. Byman has written widely on a range of topics related 
to terrorism, international security and the Middle East. His 
latest book is Things Fall Apart: Containing the Spillover from 
an Iraqi Civil War that he co-authored with Ken Pollack 
investigating the connection with states that sponsor 
terrorism.
    We also had originally scheduled Dr. Philip Zelikow, who 
had worked with Secretary Rice I think from 2005-2007. I wanted 
to just touch on these details for a minute. Very smart guy. We 
were looking forward to him being here. He had finalized his 
written statement with the staff on late Monday afternoon. It 
was distributed to all our members on Tuesday morning, and 
sometime in the mid-morning we received a call from his 
assistant that he would have to cancel.
    I put in a call to him to try to get him to change his 
mind. It turned out that he called back later that day and 
informed us that somewhere in that intervening time the 
Administration approached him about being a consultant with the 
Administration to work on the Iraq war policy, and he didn't 
think it was appropriate for him to be testifying publicly.
    He ask that his written statement not be made part of the 
record. It will not be, but he is also aware that it was 
already distributed publicly, and members can feel free to use 
it as they may. In fact, I have already asked a question at 
this morning's full committee hearing using a statement that I 
thought was a very thoughtful statement. But he is involved in 
this whole issue of what comes next in Iraq but is now working 
with the Administration.
    So I will now turn to Mr. Akin for any comments he would 
like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 35.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you.
    Good afternoon, Dr. Byman, and thank you for joining us 
here today. You have a rare opportunity this afternoon. You 
have the benefit of offering your testimony with no one on your 
right and no one on your left to disagree with you, and so 
thank you for joining us.
    Today's hearing is the second in a series aimed at breaking 
out of the false construct of talking about Iraq in terms of 
precipitous withdrawal or stay the course. While our first 
hearing was very constructive, I want to reiterate the purpose 
of this exercise. We are here to discuss alternatives that 
really offer a different plan to the current strategy. Simply 
critiquing the current approach is not the point of this 
hearing, and it is helpful only to the degree that it adds to 
proposing something different. So Dr. Byman, I look forward 
to--if you do have something that is really an alternative 
plan, we are particularly interested in that.
    After looking at your testimony, it is clear that you 
advocate departing from the strategy in the sense that you want 
to emphasize having the U.S. combat forces go door to door, 
that you want to get away from that, and securing and holding 
Iraqi neighborhoods in place. If the strategy requires roughly 
160,000 troops, you suggest maintaining a troop presence of 
20,000 in the region to contain a spillover and serve as rapid 
response forces in the event of regional intervention in Iraq, 
particularly from Iran.
    I am curious how the relatively small footprint that you 
propose for the U.S. is sufficient to carry out the military 
roles and missions you identify in your statement, which is, 
one, training Iraqi forces, two, deterring conventional 
militaries from intervening in Iraq, three, supporting al 
Qaeda's enemies and, four, conducting direct strike missions. 
While I agree that these roles and missions are important, I 
would like to understand how you arrive at the number 20,000. 
Others who share your view that the U.S. should maintain these 
roles and missions believe a larger footprint is required.
    Finally, your comments about spillover are sobering. 
Increased violence, humanitarian tragedy, a failed state, 
emboldened terrorists and regional actors all will result, in 
your view, in the wake of U.S. withdrawal or significant 
drawdown. Your policy prescription to address this problem is 
for the U.S. not to make a bad situation worse. Your statement 
also references other instances of spillover, particularly in 
Yugoslavia and Lebanon.
    I would appreciate if you would take some time this 
afternoon to discuss how the U.S. should manage the 
consequences of withdrawal and identify lessons we should learn 
from the historical cases that you cite.
    Thank you again, Dr. Byman, for joining us today.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 37.]
    Dr. Snyder. Thank you, Representative Akin.
    Dr. Byman, we will give you a chance to make an opening 
statement. Members have had your written statement for I think 
a couple of days now.
    We will put the five-minute clock on. The red light will go 
on. You feel free to ignore it. But I will do that in the 
spirit of letting you know where you are at. When you hear the 
bell, if the bells go off, we don't have to leave here for 
eight or ten minutes after the bells go off so feel free to 
keep going on.
    Dr. Byman, appreciate your being here.

 STATEMENT OF DR. DANIEL L. BYMAN, DIRECTOR, CENTER FOR PEACE 
 AND SECURITY STUDIES OF THE EDMUND A. WALSH SCHOOL OF FOREIGN 
SERVICE, GEORGETOWN UNIVERSITY, SENIOR FELLOW, SABAN CENTER FOR 
           MIDDLE EAST POLICY, BROOKINGS INSTITUTION

    Dr. Byman. Thank you very much. It is always dangerous to 
tell a professor that he has the freedom to speak for as long 
as he wants, so I will try hard not to abuse that.
    Chairman Snyder, Mr. Akin, other members of the committee, 
thank you very much for this opportunity to speak before you 
today. I regret to say that I believe that the United States 
will not be able to bring peace and stability to Iraq in the 
next several years and that, even in the long term, ending the 
Iraqi civil war would require a far greater military and 
civilian commitment than we currently have and, even then, I 
think the chances of success are far from certain.
    I will also add that domestic political support appears to 
be waning, which makes increasing the burden quite difficult at 
this time.
    Because I am skeptical of our chances for success and 
because I recognize the exceptionally heavy costs we are paying 
as a nation for remaining in Iraq, I reluctantly advocate 
reducing our troop presence substantially and moving away from 
our current policy.
    However, I do not take this stance lightly, because I 
believe a U.S. drawdown would have severe consequences for Iraq 
and also for the region. Just as I believe Administration 
officials ``best-cased'' planning for the war going in, I do 
believe critics of the war are making a similar mistake today, 
which is that they are assuming that the situation could not 
get worse when it easily can; and my testimony today focuses on 
the problem of the Iraq war spilling out into neighboring 
states and beyond. I argue that it is imperative for us to have 
a plan for containing the spillover from the Iraqi civil war.
    Because my testimony is focused as this hearing is on new 
approaches I am not going to belabor various Administration 
policies or various legislative alternatives, so I am happy to 
answer questions on them; and, instead, I am going to focus on 
the idea of a strategy of containment, which is really trying 
to prevent the Iraq problem from metastasizing beyond Iraq.
    It is worth pointing out that the civil War in Iraq could 
easily grow much worse and I believe will grow much worse if 
U.S. forces draw down substantially. We can expect tens of 
thousands, probably hundreds of thousands of people to die or 
be injured in the war and millions more refugees up from the 
over two million today; and I will point out that the United 
States has in other cases intervened to stop humanitarian 
tragedies of this scope.
    That said, there are four strategic problems I think we 
should focus on.
    One problem is going to be terrorism. Iraq is already a 
haven for terrorists. They have used Iraq for doing attacks in 
Jordan and elsewhere. We are going to see this sort of thing 
increased if the U.S. presence is reduced.
    Another problem which is happening in the region is Iraqis 
radicalizing the politics of several states in the region, in 
particular, those states that have Sunni-Shia divides. This 
issue, which has gone up and down historically, is becoming 
more salient than it has in the last hundred years in terms of 
political divisions. Refugees are going to be a huge problem. 
As I mention, there are already two million. Increasingly, the 
refugees will be poor, and many will bring the war with them. 
They are going to overstrain the countries they are in.
    In Jordan, perhaps one out of every six people in Jordan 
today is a refugee from Iraq; and many of these people are ripe 
for radicalization. We have seen this in conflict after 
conflict where young men in particular arrive with nothing to 
do, and year after year life goes on with very little hope and, 
over time, they join the fight.
    And the last thing is, because of these problems and in 
part because of simple opportunism, we are likely to see 
neighboring states intervening in Iraq, in particular Iran, 
which is already there in a paramilitary sense, but also Saudi 
Arabia, Turkey and other states that have made threats of 
intervention.
    What should we do about all these problems?
    One of the first things to do is to not make a bad 
situation worse. Several options currently being discussed I am 
skeptical about, but one I will single out in my spoken remarks 
is partition.
    For the United States to engineer a partition deliberately 
today would not serve U.S. interests. First of all, to do so in 
a safe way would require hundreds of thousands of troops, more 
than we currently have. But I think, even more importantly, the 
model people seem to have in mind is the former Yugoslavia. 
There you had communities divided after years of fighting, you 
had relatively clear borders for partition in contrast to Iraq, 
and I think, most important, you had leaders who could speak 
for their communities.
    Part of the problem with Iraq today, with any mantra of a 
political settlement which I think everyone assumes could be 
achieved with a magic wand, is that the leaders do not speak 
for their communities. There are literally hundreds of leaders 
who matter, and no one could bring the fighters to the table. 
There may come a time after years of bloodshed and ethnic 
cleansing when a de facto partition may be appropriate for 
Iraq, and the United States should not take this off the table. 
But it is not something we should engineer today.
    One of the biggest challenges we are going to have to deal 
with is the refugee issue; and, at the very least, we should be 
providing technical assistance to Jordan, Saudi Arabia, Lebanon 
and Kuwait to help them ensure that refugee camps do not become 
insurgent operating bases. Another option would be to resettle 
refugees from Iraq outside the region, and I will include the 
United States in this.
    In my judgment, we owe a moral debt but, more importantly, 
a practical one that if we have millions of Iraqi refugees that 
resettled on the borders near Iraq it is likely these refugees 
will contribute to a civil war. If we can dissipate this group 
somewhat and have them sent around the globe, including to the 
United States, the war-causing consequences will be mitigated.
    Beyond this, the United States is, of course, always going 
to have to go after terrorists, in particular terrorists going 
after the United States, through a combination of special 
operations forces, air power and intelligence assets; and at 
times the United States will have to work with factions in Iraq 
below the government level to do so.
    Also, the United States is going to have to prevent Iran 
from intervening; and I have to be careful what I say here. 
Iran is already intervening in Iraq, and Iran's interests are 
massive and to say no Iranian intervention is a goal we will 
not be able to achieve. But we need to set up some realistic 
red lines. Some obvious ones are Iran laying claim to Iraqi 
territory, pumping Iraqi oil, or sending its own forces into 
Iraq to aid its factions in terms of conventional military 
forces.
    What would U.S. military forces do in this? In my judgment, 
they would play five roles. One would be deterring Iranian 
conventional military involvement in Iraq, so large-scale 
forces, conventional forces, training Iraqi forces. And here I 
don't mean something like the Iraq Study Group. This is not 
tens of thousands of trainers helping Iraqi forces in a 
comprehensive way. This is something that there will be certain 
factions within the government will want to support, certain 
units, and we can provide a limited number of trainers to 
support them.
    And, in a similar way, we will need to improve what used to 
be known as foreign internal defense of our allies, helping the 
police refugee camps and, in general, building their 
paramilitary and police capabilities as well as their military 
capabilities; and we will also have to work with different 
groups in Iraq that are fighting al Qaeda such as our current 
support with Iraqi tribal groups where it might be logistical 
support, intelligence or firepower. And at times, of course, we 
will have to send our own forces in, that our allies will not 
be able to go after certain groups or they simply will not be 
willing to do so and we will have to do it ourselves and this 
includes missions to gather tactical intelligence.
    Now the good news on this is, since the training mission is 
limited and since Iranian conventional forces are limited----
    Dr. Snyder. Dr. Byman, the acoustics in this room aren't so 
good, and my experience as being somebody at the end, so if you 
would pull that in as close--yeah, that would be good.
    Dr. Byman. I apologize. Is that better?
    Dr. Snyder. That is substantially better.
    Dr. Byman. Sorry about that.
    I will add that I think this can be done with a limited 
number of troops in part because many of these troops can be 
based outside Iraq. Iran's military forces are exceptionally 
weak now. An over-the-horizon presence would largely suffice to 
deter them.
    And I will add further that the training is not going to be 
of the scale that some have proposed in terms of having 
literally half of the military forces in Iraq be dedicated--the 
U.S. forces are currently in Iraq dedicated to training. That 
this would be a more traditional training mission done by 
special operations forces or selective light infantry units not 
of the scale we are doing now. As this implies, the demands on 
special operation forces and other units involved in training 
and intelligence will remain heavy and perhaps even grow. I 
would endorse ideas to create a special training capacity and 
also to continue growing these units. I recognize that there 
are limits to how quickly you can do this and to keep them 
effective, but I believe that should be a constant interest.
    I will conclude, though, with a note of pessimism. Iraq is 
already a failed state. Iraq is already a haven for terrorists. 
It is so despite the presence of almost 160,000 U.S. troops 
there today. The idea that we could draw down U.S. forces in 
any way, whether as significantly as I propose or in a partial 
way as others do, and yet not have the situation get worse is 
naive.
    My problem with staying in Iraq is that I believe current 
U.S. policies are not working and are--in fact, the situation 
is getting worse and, thus, the sacrifice is not worth it. 
Having said that, I do believe that we should expect a lot of 
nasty things to come out of Iraq, and we will be dealing with 
this as a regional policy for at least a decade to come.
    Thank you very much.
    Dr. Snyder. Thank you, Dr. Byman.
    [The prepared statement of Dr. Byman can be found in the 
Appendix on page 40.]
    Dr. Snyder. As is our practice on this subcommittee, both 
Mr. Akin and I would like to be put on the five-minute clock. 
So there we go. That way, we will try to get through everybody 
before we have votes, and then we can go multiple rounds.
    Dr. Byman, you are here alone, but I am going to give you a 
chance to debate somebody else. In response to Dr. Gingrey's 
questions last week, General Wes Clark--retired General Wes 
Clark was here. General Clark was not a supporter of the 
original war, but this is what he said, and it is a fairly long 
quote, so bear with me.
    He said, I don't think the situation in Iraq is so far gone 
that we have to just throw up our hands and say, okay, we quit. 
I don't think we are there. I think a year from now, if we 
haven't changed the strategy, we could be at the point where 
the American people will believe that. You know, there are 25 
million people and they are struggling to survive in Iraq. 
There is going to be an Iraq whether U.S. troops are there or 
not. So the question is, how do we relate? What we need to do 
is change the strategy now so that we empower the troops over 
there to work more effectively against whatever elements are 
still resisting. We have to enunciate the kinds of strategic 
principles that other people in the region can sign up to. If 
we say we will only talk to democratic governments, then there 
is no need to fight in the region, because you are going to 
invite the resistance of those nondemocratic governments. We 
don't have the power to effect immediate regime change in Iran, 
Syria and every other country in the region. Why do we want to? 
Those are their countries. They have their own ideas. If our 
ideas are better, let them percolate in. This should not be an 
ideological campaign. What we are trying to do is fulfill our 
obligation to the people of Iraq by ending the violence and get 
our troops out of Iraq safely. That is all.
    That is the end of the quote.
    So I want you to respond to that. But the two thrusts 
there, number one, here is one supporting the war who says the 
situation in Iraq is not so far gone that we have to throw up 
our hands and leave; and, number two, the issue of fulfilling 
our obligation to the Iraqi people.
    And this also came out in a hearing last week from Dr. Kahn 
who reminded the committee, you know, when the war began, 70 
percent of the people supported the President and the war; and 
he kind of had his finger up at one point saying, you all are 
responsible for what happens in Iraq now. Your very gloomy 
statement says he reluctantly--you use the word ``reluctantly'' 
but say it is time to accept the fact that it is not working. 
Spar with General Clark there, if you would, about who thinks 
that it has not so far gone we have to throw up our hands.
    Dr. Byman. I have heard statements like General Clark's in 
2004, in 2005, in 2006, and now today; and what they tend to do 
in my opinion is focus on one or two particular factors and say 
it is improving slightly, it could be worse, rather than look 
at the whole.
    Let me give you some very big-picture, negative 
observations that are behind my conclusions. One is that 
political unity is getting worse, not better, that the ability 
of the United States to engineer deals among Iraqi factions was 
stronger several years ago than it is today.
    A second is that sectarian violence is much worse, that 
this was a dynamic that initially we could talk primarily about 
a war between Iraqis who liked or did not like the U.S. 
presence. Now, for many Iraqi fighters, the U.S. presence is 
actually not terribly important. They are much more focused on 
killing each other.
    A third factor is that the training mission is not working. 
Every benchmark, every report we receive suggests that problems 
remain, and in particular let me single out two.
    One that you don't hear much about but is tremendously 
important is the performance of the Iraqi police. If you talk 
to most Iraqis, they will mention crime, not civil violence as 
their number one problem, that people simply cannot leave their 
homes because they are afraid they will be kidnapped. They are 
afraid they will be robbed. And the police in Iraq are a 
disaster, and the basic functions of government thus are in 
jeopardy when the police do not work.
    A second problem is that, because the government is 
increasingly seen by many Iraqis as really just a sectarian 
militia, that when we train the government we are training one 
side in this war and even one faction within a faction.
    So I do believe we should support some elements over 
another, but we shouldn't think that most Iraqis embrace the 
idea of a very, very strong police under the--or, excuse me, 
very, very strong armed forces under the Maliki government.
    We see reports again and again of different Sunni groups in 
particular being very concerned about a strong army led by 
people they see as their enemies. And since these trends 
largely are getting worse, we see no change in the neighboring 
states' willingness to intervene, at some point I have to be 
able to look people in the eye and say, the sacrifice, yeah, 
has a chance of succeeding--and three years ago I was willing 
to say that--but, increasingly, I am not willing to say that, 
and several years ago I reached the point of believing this is 
not going to succeed.
    The only way it would be possible in my judgment would be 
for literally several hundred thousand more troops in Iraq, 
western quality troops--and I am basing this on U.S. Army 
Counterinsurgency Manual which was offered by General Petraeus, 
so I don't feel my estimate is that far out--and I believe we 
as a country don't want to provide that level of support.
    Another point which is a very painful one to me, 
obligation. Yes, we have a moral obligation to Iraq. At some 
point, though, I think we have to say that we are not going to 
fulfill it because the cost of the sacrifice is too great for 
the American people. If there is still a problem 5 years, 10 
years, 20 years, that obligation would still be there. But at 
some point you have to say it is not working and move on.
    It troubles me greatly, frankly, and part of why I wanted 
to take in so many Iraqi refugees is a very small way of 
fulfilling our obligation to some Iraqis. I recognize that 
doesn't right the scales. But it is one way of paying 
obligation. But at some point more obligation is not enough, 
and I think we have reached that point.
    Dr. Snyder. Mr. Akin for five minutes. And, Dr. Byman, that 
was the call for votes. I think what we had better do is let 
Mr. Akin ask his questions, and then we will go for votes, and 
that is the way it will be.
    Mr. Akin. Dr. Byman, it seems like you are pretty 
straightforward here, but I don't know if you really spell it 
out. What I am really hearing you say is, if we pull a whole 
lot of troops out, there is going to be a huge civil war going 
on. And you are saying pull a whole lot of troops out. So what 
you are saying is we basically have to accept the fact that a 
whole lot--some number, a million Iraqis are going to kill each 
other in the near future. And that is what you are advocating. 
That is what it sounds like what I am hearing you say. Maybe 
that is kind of stating it in a cold-blooded way. But is that 
partly what you are saying?
    Dr. Byman. Right now, sir, I believe that U.S. troops in 
Iraq are slowing the fall of Iraq into chaos and that if we 
withdraw there will be no net to slow this fall. But, that 
said, the fall is happening anyway. So it is not that I feel 
the situation is getting slowly better, I think it is getting 
slowly worse. Iraq is going to have this civil war.
    The question to me is, where are U.S. forces going to be? 
What role are we going to play?
    And several years ago I was willing to say we should try to 
stop this. But we have reached the point I think of no return, 
unfortunately; and that does mean Iraq will suffer.
    I would like to tell you again to wave a magic wand and say 
it will be all right if we leave. It will not be all right. It 
will be quite dangerous, and I am very concerned that the 
danger will go from beyond Iraq to the region, and that is why 
I believe we need planning for this now.
    Mr. Akin. So I think that is fair to say, you know, we are 
all looking at a whole series of alternatives. You know, none 
of them look wonderful. Wonderful would be if it just wasn't 
going on.
    But, on the other hand, I haven't heard anybody say--
although I had some constituents come and say, well, what we 
think we should do is just put the troops around the border and 
let them all fight it out all internally. It is not too 
different than what I am hearing you say.
    Dr. Byman. The implication of some people is that the 
Iraqis deserves the disaster that they are going to create. My 
personal view is we are not going to stop it, and there is a 
limit to how much I am going to ask young men and women in 
particular to put their lives on the line to try to limit this 
when I believe it is going to happen over time anyway. And my 
hope is that we can stop it from going beyond Iraq, and even 
that may be difficult.
    Mr. Akin. Right. Your comments, also, you talked about the 
training and the training that we have done, that was a 
committee--that was the subject of this committee's study for a 
six-month period of time. I don't think that our result of what 
we studied was nearly as pessimistic as the way you described 
it. You sort of took the worst possible part of that, saying it 
was the local police. Of course, Iraqis never had local police 
before, and that was the worst part of what we saw.
    The training, the national--the actual military side of it, 
that training has gone reasonably well. Those people are 
picking up a lot of the fight. And there is some considerable 
argument that we are starting to close down areas where al 
Qaeda can really work because we are starting to--we have a big 
enough footprint now that they are getting squeezed out and 
that there may come a time when we really kind of drop their 
influence way down and their trouble-making capacity down.
    Another piece of the question is, so we back off, we let 
the al Qaeda come in, stir up the--get the Shias and the Sunnis 
fighting and everything. So then what happens at a certain 
period of time? Some dominant group takes over. Say it is the 
al Qaeda that take over. Then are they going to be allowed to 
export their violence all over the Middle East and in Europe? 
Or how do you see that playing?
    Dr. Byman. I think that an al Qaeda takeover of Iraq is 
unlikely. The more realistic question to me is, will it take 
over a place like Anbar province or large chunks of Iraq? And I 
would say that, right now, they would take over parts of Iraq. 
So little pockets here and there.
    In some areas, tribes would win; in some areas, there would 
just be criminals; in some areas, you would have jihadist 
havens. And we should go after them whenever they are 
concentrated. But the problem will be when they are not 
concentrated, and that will be an extremely difficult problem.
    Again, I would like to tell you that this will not be a 
significant problem. I think it would. And what I want to do is 
to start to think about this now to make sure we have the local 
allies in Sunni parts of Iraq where it might set up shop to 
make sure we are working with regional security services 
against them. But I don't think that our presence there has 
stopped them from making inroads.
    And I will give the counter, which is every day we are 
there it is a recruiting poster for the broader jihadist 
movement. Unfortunately, I spend much of my time looking at 
jihadist Web sites; and Iraq is their number one propaganda 
tool.
    And the trade-off, sir, is, in my judgment, is one between 
inspiration and operations, where when we are there, they are 
inspired, which is bad. But when we are gone, their operational 
capacity will increase, which is bad. So I see it as a lose-
lose, unfortunately.
    Mr. Akin. Thank you. I think my time has expired, and it is 
probably time for a vote. Thank you.
    Dr. Snyder. Dr. Byman, what we will do, we have nine votes. 
The first one is a 15-minute vote. We have half the time left, 
and eight two-minute votes, but that is two minutes 
congressional time, which kind of slots into the three- or 
four-minute range. But sometimes we get pretty good at it.
    The staff tells me you brought some written work to do to 
fill in your time. We also have a fairly large number of young 
people here today. You are certainly welcome to respond to any 
of their questions either formally or you can turn around and 
conduct a class. That will be up to you and the staff. We 
appreciate your being here, and we will return as quickly as we 
can.
    The committee is in recess.
    [Recess.]
    Dr. Snyder. Dr. Byman, thank you for being here.
    We will resume. Our order will be a little distorted. Dr. 
Gingrey, you are recognized for five minutes.
    Dr. Gingrey. Mr. Chairman, let me pass for five minutes 
until I can get situated. You can start, and then you can come 
back.
    Dr. Snyder. That is fine.
    Mr. Akin, would you like to go a second round at this time?
    Mr. Akin. Why don't you go first, and I will follow up.
    Dr. Snyder. All right. I will. Why don't you run our clock 
there for us.
    I wanted to get to this question that you and I were 
talking about earlier. I think we were talking about what is 
our responsibility; and in your written statement you say, 
let's see, unfortunately--quote, unfortunately, just as 
Administration officials `best-cased' the planning for the 
initial invasion of Iraq, critics of the war are making a 
similar mistake with regard to a U.S. withdrawal, end quote.
    And above that you refer to the fact that a, quote, U.S. 
drawdown will have severe costs for the Iraqi people, end 
quote.
    On the second page of your written statement you state, 
``Based on the experiences of other recent major civil wars 
such as those in the former Yugoslavia, Lebanon, Somalia, 
Congo, Afghanistan, the Caucasus, and elsewhere, we should 
expect many hundreds of thousands or even millions of people to 
die with three to four times that number wounded. Hundreds of 
thousands or even millions of people to die with three to four 
times that number wounded.''
    And that struck me. I mean, you have a pretty gloomy 
statement overall, but your estimation that there could be 
millions of people who die I think is the gloomiest statement I 
have heard about the potential ramifications. I am not saying 
it may be inaccurate.
    What has concerned me--in fact, Mr. Hunter was talking 
about it at a full committee hearing today--is the 
indiscriminate nature of the war that is going on now, the 
large numbers of children that are being killed. And when you 
talk about possibly hundreds of thousands, or we should expect 
many hundreds of thousands, many hundreds of thousands or even 
millions of people to die, I think it is fair to say there will 
be hundreds of thousands or even millions of children to die.
    Now tell me again, with regard to your analysis of U.S. 
responsibility, how do you--when you see that kind of number, 
by your estimate that kind of number, how do you weigh what our 
responsibility is with regard to that kind of decimation of 
population?
    Dr. Byman. Sir, I should begin by saying I am not an 
ethicist, so I am giving you my statement as a human being more 
than as a professor or a specialist. The number I came up with 
for deaths is something that--Iraq, of course, has had well 
over a hundred thousand deaths from its war so far; and the 
numbers get even higher depending upon what you count. Do you 
count the devastation of war that destroys a sewage system so 
people die from bad water? Does that count in a death toll from 
the war or is that a death toll from bad water? There are tons 
of ways you can play with these numbers, some honest, some 
dishonest.
    A big question on the death toll is, can people become 
refugees? If people can't flee--people often flee because they 
are afraid of being killed. If they cannot flee, then they are 
more likely to die, and they are also more likely to fight. And 
that option needs to be there to keep the death tolls low.
    I am hopeful that the death tolls won't go into the 
millions, but I think it would be irresponsible to say at this 
point, when we know so little about what this war would be 
like, to say that will not happen.
    My moral view, my view of morality is that there is a 
question of can we stop this, and the answer is I think we can 
as a nation, but it would require a tremendous level of 
sacrifice. And not the level we are talking now, not sustaining 
the surge for five years out, but really doubling or perhaps 
even tripling the number of U.S. troops.
    Standard troop estimates for an Iraq sort of conflict are 
about 500,000 troops. We are not remotely near that. And even 
when you count trained Iraqis, which is a relatively small 
number, we are not remotely near that. So the question to me is 
not can we allow this to happen, but are we willing to pay the 
cost to do so? And my judgment is that we are simply not going 
to do that.
    So I don't see the value in keeping the current levels of 
troops there if it's not going to solve this problem. I think 
we will get to that level of suffering and strife several years 
out. Regardless of whether we are there or not, the United 
States will simply delay this, rather than stop it.
    Dr. Snyder. I think one of the factors, when you think 
about the tremendous sacrifices that military families are 
making and our men and women in uniform, is if it was phrased 
``are you willing to risk life and limb to prevent hundreds of 
thousands or even millions of children from being killed'', I 
think substantial numbers of American families would see this 
thing differently. But it depends on, you know, the reliability 
of your estimate. I recognize how difficult that is.
    Mr. Akin, shall we resume first round and come back with 
second round and then we will go first with you?
    Mr. Akin. I think that is a good way.
    Dr. Snyder. So Mrs. Davis for five minutes.
    Ms. Davis of California. Thank you, Mr. Chairman; and I 
think the discussion that you just had certainly, I mean, 
raises all the areas in which you touched.
    I was wondering really what the response to your paper, 
done at the beginning of this year, has been and how you have 
been able to, I guess, counter some of the challenges to that? 
How have you been able to do that?
    Dr. Byman. Well, what is slightly amusing from my point of 
view is, when I initially did this work, I was attacked quite a 
bit from people on the right side of the political spectrum for 
being very critical of the prospects for success in Iraq; and 
today I am being attacked considerably from people on the other 
side for saying that, if we leave, things are going to be quite 
bad. So I am kind of proud of the consistency with which I have 
managed to alienate almost everyone.
    My critique in general is, although my colleague and I, Ken 
Pollack, offer our thoughts on how to contain the war--and I 
should be clear again, as I was in my written testimony, my 
spoken remarks, especially on force size and some of the other 
options, are quite different from what Dr. Pollack believes, 
that we have tried to come up with some plans and ideas. This 
is something best done by the interagency process of the U.S. 
Government.
    Dr. Pollack and I are two individuals at a think tank. 
There are a few other individuals at think tanks around town 
coming up with ideas. But this is a massive undertaking. It 
involves operations with a host of allies, it involves 
humanitarian operations, it involves almost every capacity of 
the U.S. Government, and I am stunned and saddened that we as a 
government are not planning for this possibility.
    That I would love it if the surge worked; and I am hoping, 
frankly, that my analysis of it is wrong. But even if you are a 
proponent of the surge and believe it will work, I would think 
that you would have to say there is at least some chance it 
won't, and we should be planning for it to fail.
    So the question I have here is--that I am trying to address 
is, if the surge fails, what should we do? And my judgment is 
it is failing. But even if I am wrong in that and it seems to 
be succeeding, it still strikes me as appropriate to plan. And 
that is where I am most disappointed, is I don't see much 
movement in the planning community, in the professional 
planning community or in the political planning community for 
this. And there is a lot going on in the world I don't know 
about, so maybe it is going on without me, but nothing I have 
heard shows that.
    Ms. Davis of California. You mentioned the interagency 
coordination or planning. I think that we have been seeking 
that for some years now, actually, in this effort; and I am 
wondering, do you believe that there is anything in the 
potential for interagency work today that would actually 
mitigate the spillover effects that you identified?
    Dr. Byman. I think part of the problem with doing the 
planning is that if you go down this road you are at least 
implicitly saying the surge may not work, and various 
government agencies have been reluctant to start walking down 
that road. We do some programs, such as working with security 
forces in the region, that are part of what I believe is a 
mitigation strategy. We do have some capacity for standoff 
attack in the region. We do have some capacity to surge, not in 
the sense of Iraq, but to surge our air and naval presence in 
response to Iranian aggression. So some of these things are 
part of what I consider a containment of Iraq strategy. But it 
is only a part, and we need a lot more.
    Ms. Davis of California. What I am wondering as well, 
though, is whether--you know, you talk about strategically 
engaging our allies in the region. Does that include Saudi 
Arabia in that? And do you believe that we--have you seen any 
effort to do that in such a way as to acknowledge in fact that 
we will need them there to act differently in the future?
    Dr. Byman. With our diplomacy with Saudi Arabia, the Saudis 
are exceptionally discreet, and most U.S. officials who work 
with the Saudis on a regular basis try to be as well. So of all 
the countries I focus on, Saudi Arabia is the one I will know 
the least about in terms of current initiatives. I do know the 
Vice President, among other people, has gone out to the Saudis 
to push them to do a better job securing their own borders. I 
do know that there is regular security service and military 
cooperation with the Saudi counterparts. So there are a series 
of initiatives.
    I know from the other point of view the Saudis are 
exceptionally concerned about the United States not just 
leaving Iraq but leaving the region, that they fear that, 
having been burned in Iraq we will depart in a very precipitous 
manner. And so they are concerned as well. So I do think there 
is a chance to work together on this.
    The caveat I would end with is that the Saudi institutional 
capacity, especially outside Saudi Arabia, is weak. They are 
quite good at offering money to different parties around the 
world, but in terms of doing their own training missions and 
their own military missions, they don't have much outside the 
kingdom.
    Ms. Davis of California. Yeah, we haven't seen that.
    Thank you, Mr. Chairman. I will come back for other 
questions.
    Dr. Snyder. We will now go to Mr. Johnson, who was here at 
the time of the gavel, and then go in order of members as they 
came in. Mr. Sestak's not here, Mr. Jones, Dr. Gingrey, and Mr. 
Bartlett. So Mr. Johnson for five minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    As I made my way down to this hearing today, I passed by 
the office of Jim McDermott out of Washington, who, since I 
have been a Member of Congress, seven months ago I took office, 
he has maintained a board outside of his office. In fact, there 
are two boards, two large poster boards; and on those boards 
are the photographs of each and every serviceman and woman who 
has been killed fighting the war in Iraq. And two poster boards 
now are filled.
    The last little space was taken up just a couple of days 
ago, I guess. I just noticed that there was no more room on 
that second board. It must be about 150 faces, smiling faces of 
young people on that board, all of whom are now dead. The last 
one died I think it was July 4th.
    And I was having a great day, great spirits; and as I 
bebopped my way down the steps and passed that display I was 
rendered sober immediately, thinking of my responsibility here 
in Congress toward the young people who are deployed in a war, 
in the midst of a civil war in Iraq. They are losing their 
lives every day, and their parents and loved ones grieve in 
their absence.
    Then today there was a hearing in Armed Services. One of 
the persons who testified, Dr. Jessica Tuchman Mathews, pointed 
out the fact that in Iraq over 4 million Iraqis are refugees, 
internally displaced or dead from the violence. In other words, 
when you add up the dead and the displaced, 4 million. And she 
said in per capita U.S. terms that would be 50 million people 
dead or forced out of their homes, forced to flee to Canada or 
Mexico. That is the gravity of this situation over there.
    And she also said that, due to the vacuum, the power vacuum 
that was left when the U.S. took down Saddam, took out the 
military, took out the social structure there, the power, the 
vacuum that was left caused the struggle for power now. And the 
struggle for power by all of the sectarian interests over there 
will continue whether or not the U.S. is there or the U.S. is 
not there. It is inevitable that the parties over there will 
fight it out until they get tired of fighting, until someone, 
some power that has tested and tried the others and the others 
have wilted and now the power now resides with one, the winner. 
And at that point peace can be attained.
    Given that very thoughtful and reasonable analysis, why 
does it make sense for the United States to continue to have 
forces deployed in the middle of a civil war that we started? 
We started it, and certainly we have a--it is an indelible--it 
is a stain that is indelibly etched on our history forever that 
we started it. And we owe those four million people something. 
But is it to keep our troops there or is it to have a more 
robust diplomatic effort that can help enhance the prospects 
for an internal political solution to that conflict over there?
    Dr. Byman. As you know, sir, I am personally skeptical that 
large numbers--the current force size can do the mission we 
want it to do in Iraq; and that is part of the reason I favor a 
significant drawdown. However, I am also skeptical that a 
diplomatic solution can be reached without the security 
situation stabilizing. That right now we can have a meeting of 
the Iraqi parliament or we could have a meeting of the 
ministers of government, but they don't control the people with 
the guns on the street level. So any deal they strike isn't 
really worth that much for most of the communities in Iraq; 
and, as a result, this conflict is still going to play itself 
out.
    And that is where I am so pessimistic. I don't see the 
chance of either a political solution or a military solution in 
the near term; and, as a result, my view is what are other U.S. 
interests in the region that might be jeopardized and how could 
we avoid losing even more at this point?
    Mr. Johnson. Thank you.
    Dr. Snyder. Thank you.
    Mr. Jones for five minutes.
    Mr. Jones. Mr. Chairman, thank you very much; and, Dr. 
Byman, thank you for being here today. I found it very 
interesting. I got here a little bit late, but your comments 
about your feelings three years ago versus where your feelings 
are today and what the options are, which are not good, and you 
stated that, whether we stay or whether we leave.
    But let me give you--the question is this. Would the 
Iranians be happy to see us leave or would the Iranians figure 
that if we leave then they have got a problem they have got to 
handle?
    Dr. Byman. Right now, many in Iran would be delighted if we 
left; and I think many believe that Iran could best benefit 
from the power vacuum there. I do believe that, in the short 
term, Iran's influence would grow. But it is unrealistic from 
my point of view to expect Iran to have significantly more 
interest--or, excuse me, significantly more capability to 
influence events in Iraq than we have had. They have a much 
weaker military, they have much less money, and many Iraqis, 
including many Iraqi Shia, are intensely prickly about Iranian 
involvement.
    There is a Persian-Arab rivalry, of course; and Iraqi Shia 
were the bulk of the troops who fought against the Iranians in 
a very bitter war in the 1980's. And there is a general sense 
that all people have, which is that they don't want an outsider 
meddling in their country.
    So I do think Iran's influence would grow. I don't want to 
pretend it wouldn't. But I judge that to be manageable. And I 
believe Iran would start to have a number of problems, that 
Iran would find many of its proxies are not terribly loyal, 
that many of the people it wants to empower it is not 
succeeding with. But, that said, Iran in the short term at 
least will have an increase in influence.
    Mr. Jones. I think today at the hearing Dr. Mathews was 
saying that in her opinion that it is difficult to say how much 
worse the situation would be if we pull out. Would the civil 
war become widespread? She said it is just impossible to say 
yes or no. You have your feelings that you feel--not you, but 
any professor like yourself.
    But, again, I go back to Iran for this reason. If this 
civil war, if we pulled out, would expand to all parts the 
Iraq, which would border on Iran, would you think that they 
would feel compelled, even though their army is small or not as 
strong as ours, that they would have to do something in a 
formal way with their military?
    Dr. Byman. I think that is quite plausible. And that is how 
I think of Iraqi futures, is I try to think of not what is 
likely, because there are so many factors in play it is so hard 
to predict, but what passes the smell test? And that scenario 
you just outlined certainly does, where Iran feels that, 
whether the Shia as a whole are suffering depredations or its 
particular proxies are having problems, that it feels the need 
to intervene more forcefully and decisively. And in part Iran 
might do that because it believes they are easy pickings, the 
Iraqis are too weak or disorganized.
    The United States should make a very strong effort to stop 
exactly that, to make sure Iranian involvement is limited to 
its present level; and that will be hard to do. And there U.S. 
capabilities actually work tremendously in our favor. We do 
have a lot of capabilities to interdict Iranian forces, and the 
key is to make sure that Iran knows that now, so they know that 
option is off the table for them.
    In particular, I fear a scenario where Iran steps up 
involvement so its rivals such as Saudi Arabia or Kuwait or 
Jordan start backing their proxies more and there is a tit for 
tat that leads to almost inadvertent escalation. That is 
something that is part of a containment strategy we should 
aggressively try to stop, both through military deterrence but 
also through very aggressive diplomacy.
    Mr. Jones. Let me very quickly, because my time is about 
up, but this Administration from a foreign policy standpoint 
seems to get a D or D-minus, maybe even an F. Because it has 
been a failure. There is no question about it. Do you think 
having a new look--and I am not talking about a presidential 
election. But do you think that it makes any sense at some 
point in time--it is not now--but this Administration would 
select someone to represent this country in the Middle East in 
a private way maybe to put together some relationships that we 
now don't have? Would that make some sense at some point a year 
from now, maybe less than that?
    Does it make sense to have a new face, instead of President 
Bush, Dick Cheney, Condoleezza Rice? Does it make any sense to 
get somebody like a Colin Powell? Not saying that he would be 
the person. But to put a new face out? Would that be of any 
help to start a discussion that we now don't seem to have with 
some of these countries?
    Dr. Byman. In my judgment, yes. That person, though, needs 
to have a very unusual resume. They need to have enough stature 
within the Administration to be taken seriously.
    Because the people in the region are very sensitive to 
power relationships, and they know that retired ambassador so 
and so doesn't have the President's ear, and so they will not 
pay particular attention. But that person needs to be seen as 
relatively independent.
    I think the idea of retired Prime Minister Tony Blair is a 
great example of the right sort of person, someone very 
respected both publicly but also within the Administration, yet 
who has a degree of independence. So I think the idea is a very 
sensible one, sir.
    Mr. Jones. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you very much.
    I was one of just a handful of Republicans that voted for 
the Spratt substitute before we went into this war because I 
did not think that what we wanted to do there was very doable. 
I thought it was a very steep hill to climb.
    There is no country around Iraq that has anything like the 
government we wanted them to have. We have dictatorships in 
several countries. We call them royal families. They may be 
benevolent dictatorships, but dictatorships nonetheless. We 
have kings in Jordan and Syria. We have the mullahs, kind of a 
theocracy running Iran. And we have an on-again, off-again sort 
of a democracy in Turkey where, by constitution, the military 
can throw out the civil government at any time they wish.
    I wanted a U.N. Resolution because I did not want us to own 
this war. I wanted this to be a U.N. action. I am not a big fan 
of the U.N.. I don't mind so much them failing. I mind an awful 
lot the United States failing. And I thought there was a very 
high probability of failure here.
    Aside from not owning this war, as we do now, what else 
might be different if the Spratt amendment had prevailed and we 
had a U.N. Resolution that was not our war?
    Dr. Byman. That is a very difficult question, so I will 
give some conjecture.
    The big problems we had in Iraq, in my judgment, were an 
immediate nationalistic backlash among Iraqis that later on 
morphed into a series of other conflicts but began with angry 
Iraqis and not enough troops. I think that having more 
international backing might have led to more troops. Not 
necessarily, though, but might have led to more troops. Also, 
it would have sent a message that we were not in Iraq to stay, 
that we were not going there to be an occupying power; and 
having the United Nations imprimatur helps with that.
    But, that said, both of those to me are uncertain, 
especially the troop levels. So I am not sure how much 
difference it would have made in the end. Several of the 
factors that produced the insurgency, such as the de-
Baathification campaign, the getting rid of the Iraqi military 
very early, and also in general the surprisingly failed nature 
of the Iraqi state, the fact that we didn't anticipate just how 
broken this place was, these still would have been there. So I 
think it certainly would have been better if we had 
international support. I don't want to say that. But that only 
would have gotten us part of the way.
    Mr. Bartlett. But at least if it was a U.N. operation we 
wouldn't own the war and it wouldn't be our failure, would it?
    Dr. Byman. I don't know, sir. My judgment is that we would 
say it is a U.N. operation, not an American operation, but most 
of the world would look and say, you know, 90 percent of the 
troops are American, the diplomatic impetus behind this was 
American, the political brainchild was in America. It may have 
a U.N. label, but it is an American war. It would perhaps 
reduce it a bit, but I think it would still be ours.
    Mr. Bartlett. So we would have to use some diplomacy to 
convince people it wasn't ours.
    Dr. Byman. That would be the goal, yes, sir.
    Mr. Bartlett. That's why we have diplomats, isn't it?
    Dr. Byman. That is certainly one of the reasons.
    Mr. Bartlett. Okay. My wife has a very good 
characterization of where we are now, I think. She says it is 
like having a tiger by the tail. You hang on, he will drag you 
to death; you let go, he will eat you. She doesn't see any easy 
way out, and I am afraid I don't see any easy way out.
    I thank you very much for your insight. I think that 
because there is so much difference of opinion on this subject 
that you might make your decision by a roll of the dice and be 
just as erudite as if you made it after a long, thoughtful 
process. Thank you very much.
    Dr. Snyder. Dr. Byman, if you are still up for it, we will 
give members an opportunity to have a second round of 
questions. I have already had my second round. Mr. Akin.
    Mr. Akin. I am going to pass.
    Dr. Snyder. Going to pass.
    Mrs. Davis.
    Ms. Davis of California. Thank you again for being here, 
Dr. Byman, as well.
    I think one of the maybe more unrealistic notions that we 
have as we are trying to pull this together is that, in fact, 
even if there was an all-out civil war that we would be able to 
stay on the sidelines. I think that would be difficult to do.
    I know that you are trying to suggest ways to mitigate 
that, to have areas where, you know, the people could go for 
safety, that you would have some forces on the border that you 
would try and find safe havens where one might. I am just 
challenging in some ways that notion, because I think that it 
seems to me that it would be difficult for the U.S., having 
gotten out in some way, to not intervene. I mean, that is one 
of the challenges. In many ways, I think that is something the 
Administration is suggesting, that in fact we wouldn't be able 
do that. Can you respond?
    Dr. Byman. Sure. I have to be careful. I don't want to tell 
a Member of Congress about the political mood of the American 
people, and that is to me really what it would come down to.
    There are a couple different possibilities you can think 
of. One is the genocide in Cambodia after the Vietnam War, 
where two million people died. But there was absolutely no 
appetite in this country to intervene to stop that. The idea of 
in 1977 saying to the American people let's go back to 
Southeast Asia and fight another war, despite the horrific 
situation there, I think wasn't going to happen. So there is a 
question: Would many people in the United States simply say, 
having not succeeded in Iraq, we would look to wash our hands 
of it?
    And part of my goal in my own work is to try to say we 
cannot wash our hands completely. We can draw down, but we 
cannot leave. We should expand our regional involvement, even 
as we reduce our presence in Iraq. So the message I am giving 
is one that I am not sure will have many natural sympathizers.
    My personal sense is that, while many Americans will be 
troubled by the killing in Iraq, many of them feel that the 
United States has done enough and that the natural constituency 
that would be outraged by this sort of killing is actually part 
of the constituency right now strongly calling for the United 
States to leave. So I don't see that political pressure, but I 
think every member sitting at the table is far better qualified 
to make--to answer your question than I am.
    Ms. Davis of California. One other issue that we spoke 
about today was the extent to which al Qaeda is preeminent in 
the Sunni insurgencies today. And I think it is suggested it is 
maybe about 15 percent of that insurgency but not the primary 
players, even though horrific as they may be. Could you comment 
on that and whether or not in fact it has been--we use that al 
Qaeda in Iraq as if in fact that were the entire insurgency and 
how that is playing a role in terms of the discussions today. I 
had asked that question earlier. And what you feel we should be 
doing to counter the jihadist propaganda, if you will, in terms 
of the fact that--and indeed they are playing a role and 
dealing the cards there.
    Dr. Byman. Two very important questions.
    They are part of the insurgency. From our point of view, 
they are the most important. Because if the Iraq war were to 
die down those people would still be going after U.S. allies 
and Americans, while various Shia thugs would not. So although 
they are only part of this, they are a very important part from 
an American national interest point of view.
    One of--I actually think that, on this, the 
Administration's thinking and planning has improved 
considerably in the last year. One of the shifts in the last 
year under General Petraeus is a shift from only focusing on 
the insurgency and only focusing the emphasis on the Sunni 
parts to also trying to rectify the failing state problem, to 
go after groups like the Mahdi Army that are not being 
subordinate to the government; and that is vital if you want to 
stabilize Iraq. As you know, I am skeptical about troop levels 
and so on, but that is the approach you want to take.
    So I think that we have gotten better on that issue. Not 
saying all our enemies believe one thing and they are all 
pigeon-holed, but that 15 percent to me is disproportionately 
important and especially for the purposes of my own research 
and testimony, which is about the conflict beyond Iraq. Because 
those people have already done terrorist actions outside Iraq, 
and it is perfectly reasonable to expect that to increase, at 
least in the short term, if the United States gives them more 
freedom of action.
    On the propaganda, I take a somewhat different view. We 
spend a lot of time on propaganda, and we call it public 
diplomacy, of trying to make ourselves look good. And that is a 
very difficult effort when we are doing several policies in the 
Middle East that most people simply don't like. I think, you 
know, as peoples, as governments, we just disagree.
    I would spend a lot more time making the adversary look 
bad. These are people that deliberately kill women and 
children, they have many teachings that are extremely unpopular 
among most Muslims, and rather than try to defend our own 
actions, we should go on the offensive and make it about them.
    If the debate is about the legitimacy of U.S. policy toward 
Iraq and Israel, even though I share much of the Administration 
view on this, if that is the debate, we are going to lose it. 
If the debate is about their treatment of women and children, 
their actions, their interpretation of Islam, we are going to 
win that one.
    Ms. Davis of California. Thank you.
    Dr. Snyder. Mr. Jones for five minutes.
    Mr. Jones. Mr. Chairman, thank you.
    Dr. Byman, I am going to read a quote from General Jack 
Sheehan, and then I have got a question.
    General Sheehan, 35 years in the United States Marine 
Corps, was offered the position as war czar; and he turned it 
down. And what I want to read to you is his quote in The 
Washington Post, April 11th, 2007:
    I have never agreed on the basis of the war, and I am still 
skeptical. Not only did we not plan properly for the war, we 
grossly underestimated the effect of sanctions and Saddam 
Hussein on the Iraqi people.
    There is the residue of the Cheney view: we are going to 
win; al Qaeda is there; that justifies anything we did. And 
then there is the pragmatic view: How the hell do we get out of 
Dodge and survive?
    Unfortunately, the people with the former view are still in 
the position of most influence. The very fundamental issue is 
they don't know where the hell they are going. And I think when 
I hear a general, I don't care if it is Army, Air Force, 
Marine, but this is a Marine, 35 years, when he makes that type 
of statement, I think he is speaking for a lot of people. And I 
think you, in your comments today, you have acknowledged that.
    Then today we had Dr. Kagan--I believe is the way you say 
his name--who was part of the neocon--he didn't say he was, but 
I did--that helped get us where we are. They didn't see 
anything but just we are going in, they are going to love us, 
and in about 120 days we are going to be out and everything's 
just going to be lovey-dovey, which was obviously a failed 
policy.
    But this was in a paper written by the McClatchy: Deployed, 
Depleted and Desperate. It is April of this year.
    Very quickly, here is a question for those who--that still 
support President Bush's strategy to stretch out the Iraq war 
until after he has left office and for those who think we 
should be prepared to continue our bloody occupation of Iraq 
for five to ten years. And this is the point. Are you ready to 
support reinstating selective service, the draft, even if that 
means your sons and daughters or your grandchildren will have 
to put on the uniform and go hold the cities and towns of a 
nation that is in the middle of a civil war? That is why I was 
very interested in your writings and also your positions.
    I personally think that the American people, the latest 
poll of July the 11th said that 68 percent say Bush is wrong on 
this war. We are getting to a point of where I think we as a 
nation are becoming desperate. And I use that word 
``desperate'' when I am talking about manpower, and I don't 
believe that we can sincerely survive on a voluntary military 
when they are worn out. There are four and five deployments. 
The national guard is worn out, the reserve is worn out, the 
active duty is worn out, and yet we still have not had the 
courage in this Congress to come forward----
    I want to thank Chairman Ike Skelton, who is not here 
today--I mean, he is not on this committee, he is full 
chairman--that he brought this to the floor. And I was one of 
four Republicans to vote with the chairman. Because my 
rationale was that, for the first time in five years--and this 
is the fifth year of the war--we as a Congress have never 
passed a bill that was not a supplemental, that was a policy 
bill, as modest as this was, just to make a statement. And I 
just really--I have heard--you know, you can restate if you 
want to--but I just don't know that this country can continue 
to borrow money from other governments and try to pay for a 
war, pay the interest on the public debt, and do what we are 
doing to our military. We are breaking the Army and the Marine 
Corps. We are breaking it.
    Dr. Byman. Briefly, sir, I think you are right. And it is 
frustrating. I direct the largest master's program focused on 
security in the country, and I have two types of students. I 
have students who are part of the Iraq effort, they are going 
to Iraq, they are coming from Iraq, and everyone else. And they 
are in two different worlds. The ones who are going to or are 
coming from Iraq, they are scrambling in their family 
situation. Many of them are dealing with personal loss in a 
whole variety of very difficult ways. And for even the rest of 
this community focused on security, Iraq is a much more 
abstract thing; and that is very troubling to me.
    And I am speaking not here as someone who likes to consider 
himself an expert on some issues but really just as a citizen, 
that we have this divide. And in Iraq in particular I am 
troubled, because what we are asking of our troops by our own 
doctrine requires far more troops; and so to ask a few to bear, 
to do the job of many is I think irresponsible and will not 
work.
    Mr. Jones. Thank you, sir.
    Dr. Snyder. Mr. Sestak for five minutes.
    Mr. Sestak. Thanks, Mr. Chairman.
    I apologize. I didn't get back from the vote right away. I 
had an interview.
    What I am taken with is that at some time soon--and I 
cannot agree more with Representative Jones--this Congress may 
actually by force of law bring about an end to this tragic 
misadventure. In my mind, however, although I have always, even 
when I was in the Navy and the war was going on with the 
carrier battle group I had there, felt that a date that was 
certain was, given enough time, the right strategy, but what I 
am most taken with now is the dog may eventually catch this 
car, and by force of law we may actually bring an end.
    I think an end is necessary but insufficient. The how and 
the means by which we end it is of even greater importance to 
the safety of our troops and to the security of this nation. 
End it we must.
    I honestly believe Democrats need to, if they are--shift 
from pure opposition to understanding that the consequences of 
the aftermath are so great for this nation, that it is the 
country's war because of that, not Bush's. We need the 
Republicans, more than four, if we are to end this tragic 
misadventure. Because I am not anti-war--I was in the military 
31 years--I am pro-security. And his points are so well taken.
    The Clinton Administration, two divisions went C3/C4 for 60 
days, and the howl on it. We don't have one unit here that 
could go and save our 30,000 troops in South Korea today, not 
one at the ready. So I honestly believe a strategic approach to 
this is vitally important.
    With that as template, to jump down--I have always been 
taken with everyone talking about it is a political dimension 
to this, and I agree. When I was with Senator Hagel, everyone 
talked about the influence of Iran; and the National 
Intelligence Council said the other day that when they said we 
spiral into 18 months of chaos within 18 months if we withdraw, 
but they never considered the influence of Iran in a positive 
way.
    Do you proposition, in a third way of thinking, that really 
redefining the possibilities, because that is what we are 
really about in this third way, we could actually have Iran, 
Syria deal with the extremists as we deal with the center, with 
the incentive for their behavior being our redeployment? 
Understanding the time to redeploy from Somalia for 6,300 
troops took 6 months, and we inserted another 19,000 to protect 
them. We got 100,000 U.S. civilians there, over 160,000 troops.
    So two points. Iran, is it critical to defining a 
possibility of leaving behind an unfailed state as we redeploy?
    Dr. Byman. I think that Iraq is a failed state 
fundamentally right now, and Iran's ability to rectify that is 
more limited than ours.
    Mr. Sestak. Is more?
    Dr. Byman. More limited than ours is. I think there are 
parts of the country that Iran could have tremendous influence 
over. And that may be a reasonable approach to parts of Iraq 
where, rather than talking about Iraq, we go province by 
province, in some places neighborhood by neighborhood and, you 
know, take out what we can. And that is depressing to say.
    But it is reasonable for Iran to look to Iraq to try to 
play a stabilizing role. But we should remember some of Iran's 
interests are fundamentally against ours. They want Iraq to be 
anti-American. Now it doesn't have to be violently anti-
American, but they want it to be anti-American.
    Also, the Iranians believe we are leaving anyway, and so 
the incentive to deal from their point of view is rather 
limited, because they have said for a while now America is on 
its way out.
    Mr. Sestak. That does differ from what Mr. Fingar, the head 
of the National Intelligence Council, said. He said they have a 
strong interest in not leaving behind a factionalized 
government. Ambassador Crocker said the same and said that 
their prognosis on it spiraling into chaos would be different 
if Iran were included in the mix.
    Dr. Byman. The Iranians certainly do not want Iraq to 
spiral into chaos. But like us, for that matter, they have 
conflicting goals. They want stability, but they want stability 
on their terms.
    Mr. Sestak. Is that a bad deal if you have stability? We 
don't have the government we want now. So what if it is 
different than we want?
    Dr. Byman. If Iran can help foster stability in Iraq, we 
should encourage it to do so. So that is--my bottom line is 
strong agreement on that point.
    Mr. Sestak. Last-second question, if there is time for one 
more.
    Dr. Snyder. Mr. Sestak, we have actually gone a second 
round, so we will start your second round now and start the 
clock for another five minutes.
    Mr. Sestak. You didn't talk--or I may have missed it as I 
went through your testimony. Did you talk about training or 
leaving behind or changing the mission on training the forces 
of Iraq? Many have talked, like the Baker Hamilton Study, that 
that is a key part, as we draw down, to doing that. Had you 
spoken to that issue? Do you believe in that?
    Dr. Byman. I touched on it lightly. I believe in two types 
of training missions. But let me talk about this a little bit.
    A very important training mission is stepping up training 
with neighboring states. So states that are not already in 
chaos but have the potential to be infected by Iraq. So step up 
those programs.
    I do believe that we want to work with some Iraqi factions, 
and this could be factions close to the central government, it 
could be tribes in Anbar province or elsewhere, and that 
training might be part of that mission. But here by 
``training'' I don't mean the massive training people are 
talking about that the Iraq Study Group seemed to endorse of, 
you know, brigade-sized training units. To me, that is far too 
big. I don't think most of that brigade is actually trained in 
training, if you know what I mean; and I think that we won't 
get that much more bang for our buck with a significantly 
larger training force. So I would still do training but at a 
much smaller level.
    Mr. Sestak. I wonder about that, also. I am glad to hear 
you say that.
    I have watched as bills get passed or things get posited 
there. It is almost like somebody in immigration, the bill over 
in the Senate, you have to have touchback because somebody 
wanted it, you know. And it sounds good, and we will give that 
to them. We will train. We will protect the borders. We can't 
protect our own borders.
    In training, you know, there is 47,000 combat troops out of 
the 160,000 there. And to me it is not a question of training 
of these people, it is a question of the motivation and 
loyalty. Are we ready to embed our troops and potentially have 
another Blackhawk Down? You know, 40 or 60,000 troops, that 
means there is only--and 20,000 are going to be advisors or 
trainers, that is another 40,000 for 60,000, and that means 
only 10,000 are combat on a 2:1 ratio. I mean, does this 
concern you?
    Dr. Byman. Certainly. Any training mission will be 
dangerous for the people involved. But, again, to be clear 
about what I mean, I am not thinking about joint combat 
patrols.
    Mr. Sestak. Pieces.
    Dr. Byman. And much of it could be done outside Iraq, and 
it is a very limited effort.
    And very important, which this committee has looked at a 
bit, I know, is the issue of the Iraqi police; and from a 
counterinsurgency point of view, police are often the most 
important instrument. And we don't have--we have limited 
programs in the State Department, but we don't have the kind of 
significant training programs for police, and I think we should 
develop them. So to me it is a very different capacity and one 
that most--most combat forces, most American forces are 
actually not oriented toward.
    Mr. Sestak. At the end of the day, your position is, I 
gather--and I didn't hear everything and I apologize--is you 
thought this was something that might have been doable. Now you 
feel as though our security writ large, or to our men and women 
there wearing the cloth of the nation, it isn't right to 
remain, at least not in the levels we are at.
    Dr. Byman. Correct, sir.
    Mr. Sestak. What then? Is it down to zero?
    Dr. Byman. My personal estimate, and it was a back-of-the-
envelope estimate, is that you end up with about 20,000 troops 
in Iraq and in the neighboring states.
    Mr. Sestak. Doing what in Iraq?
    Dr. Byman. Part of it would be a training mission, part of 
it would be direct strike mission against al Qaeda and jihadist 
assets----
    Mr. Sestak. How many inside Iraq? Back of the envelope?
    Dr. Byman. This will depend on----
    Mr. Sestak. These numbers we went over.
    Dr. Byman. Well, it depends whether, you know, will Kuwait 
take a lot of these people? How many will be protecting refugee 
camps?
    Mr. Sestak. I think you are right, also. We have bases in 
Kuwait, Qatar.
    Thank you very much. I appreciate it.
    Dr. Snyder. Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you very much.
    I am conducting my own little poll, and I wonder for a 
moment if you will help me. If you have a piece of paper and 
something to write on, could you write down four brief things 
for me: Hate each other, hate al Qaeda, hate us, and something 
else. Now, if you would put opposite each of those four the 
percentage of the present violence we see in Iraq, which is 
attributable to each of those four?
    Dr. Byman. Okay.
    Mr. Bartlett. Now, can you read me those numbers? What 
percent of the violence is because they hate each other?
    Dr. Byman. Twenty percent.
    Mr. Bartlett. Twenty percent. And how much is because they 
hate al Qaeda?
    Dr. Byman. Five.
    Mr. Bartlett. Five percent. How much is because they hate 
us?
    Dr. Byman. Ten.
    Mr. Bartlett. Ten percent. Wow. The something else is 
really big then.
    Dr. Byman. Something else is very big, yes
    Mr. Bartlett. What is it?
    Dr. Byman. Something else is a variety of factors relating 
to a security vacuum, which is crime, personal insecurity, 
tribal rivalries, opportunism, ambition. That when you have a 
situation where there are no police and no state, violence 
tends to break out; and it tends to break out among people who, 
before, they were friends and neighbors.
    So when you have the situation of a failed state, over time 
things like they hate each other, I would have put that--even a 
year ago, I would put that much lower. But over time the 
violence begets violence, and the hate each other begets hating 
each other. Most Iraqis didn't hate each other six or seven 
years ago. They hated their government. They hated some 
outsiders, and--but the violence itself has caused many of 
these problems. The collapse of the state has caused many of 
these problems.
    Again, I keep going back to things like the police. That is 
in part because, when you talk to Iraqis, a lot of what they 
focus on are crime and personal security. Yes, they are 
concerned about death squads, but they are also concerned that 
they can't send their daughter to school because the local gang 
leader is going to kidnap her and hold her for ransom.
    Mr. Bartlett. Mr. Chairman, this is very interesting. In 
the brief poll that I have run, there is pretty much 
consistency that the hate each other is not very large; and I 
was surprised and continue to be surprised at the very low 
percentage that is attributed to hate al Qaeda, because I was 
led to believe that the only entity in Iraq that was hated more 
than us was al Qaeda, and apparently that is not true. I found 
huge differences in the percentages of violence that is 
attributed to hate us, and that is very interesting.
    I will continue my little poll. Thank you very much.
    It is my understanding that your considered judgment is 
that the sequela in Iraq will be little affected by when we 
leave?
    Dr. Byman. I am sorry, the what will be little affected?
    Mr. Bartlett. The sequela, what happens in Iraq will be 
little affected by when we leave, whether it is now or a year 
or five years?
    Dr. Byman. I think that it will be hastened when we leave. 
But whether it is now, in a year or five years, I think it will 
be hastened at that point. So if there is a heavy cost to be 
paid, which I believe, I think that it is better to pay it 
sooner and not have to deal with the day-to-day costs.
    Mr. Bartlett. It will be hastened. What is it?
    Dr. Byman. Well, we are providing security in parts of 
Iraq. We are reducing some of the violence in parts of the 
country. I don't want to say that the U.S. troops there are 
doing no good. They are doing some good. And when you remove 
them, security in those neighborhoods may go away.
    And also you are sending a signal that could--right now, 
most of the armed groups cannot mass in large numbers because 
they would be extremely vulnerable to U.S. firepower. If we 
leave, they will be more able to mass; and when you are more 
able to mass you can do damage on a greater scale. So I do 
think that the violence will spike, but I think I could be 
testifying before you in five years, sir, and say the same 
thing if we still have the same troop level there.
    Mr. Bartlett. We are clearly on the horns of a dilemma. Our 
young people are being killed; and the longer we stay, the more 
of them will be killed. But if with our leaving there would be 
enormously increased numbers of Iraqis, most of them innocent, 
killed, then we clearly have a dilemma. As a compassionate, 
honorable people, what do we do now that we are in this 
situation?
    Dr. Byman. Let me--since I am on the record, let me put a 
caveat in about your earlier poll before I go to your very 
troubling question. Although I attribute only five percent to 
hating al Qaeda, they are indeed hated. But they are only in 
small parts of Iraq. So much of the violence is occurring in 
areas where they have nothing to do with it. It is not a 
question of how hated they are; it is a question of their role 
in the violence.
    What do we do as conscientious people? We try to make a 
difference. We try to help the victims of suffering. But I 
believe we have tried to make a difference for several years 
now. And it is not just that it hasn't worked, it is that the 
situation has gotten worse. And at some point you say we either 
have to try something new and dramatically different, which in 
my judgment would not be a surge of 20,000 troops, it would be 
a surge of far more, or you say this is not working, we should 
spend our resources and spend our efforts somewhere else.
    And, sir, part of the reason I am so troubled by my own 
recommendations is the tremendous suffering that Iraq is going 
through that I think will increase. But I don't believe we are 
fixing that. I don't believe Iraq is getting better. I believe 
it is getting worse. So I can't in good faith say we need to 
stay there and have the situation only steadily get worse, 
because I believe that is not a path toward eventually solving 
this problem.
    Mr. Bartlett. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Dr. Byman, I have one final question; and we 
will see if Mr. Sestak or Mr. Bartlett have any final 
questions.
    On page nine of your written statement you say, quote, no 
matter what happens in Iraq, an overriding U.S. national 
interest will be to limit the ability of terrorists to use Iraq 
as a haven for attacks outside the country, especially directed 
against the United States. The best way to do that will be to 
retain assets--airpower, special op forces and a major 
intelligence and reconnaissance effort--in the vicinity to 
identify and strike major terrorist facilities like training 
camps, bomb factories and arms caches before they can pose a 
danger to other countries, end quote.
    But the reality is, under the scenario you are outlining, 
that will be a very crude tool for going after al Qaeda. And 
under the scenario you have outlined--major enhancement of 
violence, much more instability, back to a failed state--we 
will be kidding ourselves if we think some kind of over-the-
horizon force can deal with a relatively small number of 
terrorists that may have their eyes on us rather than on what 
is going on in Iraq. Isn't that a fair statement?
    Dr. Byman. Yes, sir.
    Dr. Snyder. Mr. Sestak, do you have any further questions?
    Mr. Sestak. There are some that say that a scenario that 
you paint is not by any means one that would ensue. They say--
and parts of this isn't all that you said, but would the 
violence spread outside the country? Civil wars in Afghanistan, 
Algeria and Lebanon have not. Some say the regional powers will 
be sucked in, and yet Saudi Arabia and Iran don't want a direct 
confrontation. Nor does Syria, Sunni-led, as compared to 
fighting now a proxy war, if we depart, between it and Iran. 
And that Iran might dominate or have undue influence.
    It always seemed to me out there that they were Iraqis 
first, Shias second, and they fight among themselves in the 
south. And so, in redefining the possibilities, it just seems 
to me that those that tend to draw that our withdrawal will 
necessarily have something spiral--in those three areas I 
mentioned, it portends to me that we aren't making progress 
this way. There is a possibility the other way.
    The only thing I find missing, which I think you may 
disagree on, is are you able--because I do believe these powers 
don't want to be sucked in--are you able to leverage them in a 
different way to engage them than we have done in the past? To 
where they came to us in 2003, Iran? To where they worked 
toward the same goals they have in Afghanistan, up until 
recently reportedly, because they didn't want al Qaeda and 
Taliban there? But you say you really don't think that these 
countries could potentially have some sort of keeping this from 
spiraling into the chaos that many say?
    Dr. Byman. A couple different points.
    To begin with, on the various civil wars you mentioned, 
they did actually spill over in many ways. In Lebanon, Israel 
and Syria fought a war.
    Mr. Sestak. No, they sucked them in. They didn't spill 
over.
    Dr. Byman. I guess it depends how you----
    Mr. Sestak. I mean, by clear definition here.
    Dr. Byman. I would define ``spillover'' as cases that also 
outside powers feel the need to be involved.
    Because, in the Lebanon case, terrorism was a huge problem 
for Israel, emanating from Lebanon; and that was a form of 
spillover that led the Israelis to respond. But, in 
Afghanistan, I think we all know that, you know, 9/11, of 
course, and numerous other plots emanated from Afghanistan. The 
civil wars in general led to Pakistani intervention. 
Afghanistan produced several million--three million, I 
believe--refugees. That had tremendously destabilizing effects. 
We are still seeing it in Pakistan today. We are reading about 
it in the newspapers today. In Algeria, you had terrorism, 
several attacks in France occurred, and an attempted attack on 
the United States from Algerian terrorists.
    So even those cases which evince less spillover than some 
of the others, certainly it is there to me, but----
    Mr. Sestak. Back to the domino effect. Refugees are 
refugees. The instability spilling over is different.
    Dr. Byman. I am not saying that Saudi Arabia will fall if 
we leave Iraq. So I don't want to say in that sense. But there 
are several forms of instability that can emanate from Iraq, 
and my judgment is that a few of them will show up in a few 
places, and that doesn't necessarily mean catastrophe, but it 
could mean very serious problems.
    As you said, we can't predict this with any certainty. I 
would be the first to scoff at someone that said, two years 
from now, Saudi Arabia will have problem X because of Iraq. The 
flip side is also true. I think that we have many historical 
examples of these problems that civil wars spill over and suck 
in, as you put it. They are neighbors to the point where we 
should be very concerned and our policies today should try to 
head this off even though it might not happen.
    And an example is when we went into Iraq in 2003 where a 
lot of--there were a lot of potential scenarios for how Iraq 
could have gone, and we focused on one which was an optimistic 
one. That to me wasn't completely ridiculous. In hindsight, it 
looks that way. But my view is, we simply didn't know. So we 
should have planned robustly for a range of negative ones as 
well. As you said in your remarks earlier, we need to be 
thinking about this from a bipartisan way, not just, should we 
stay in Iraq or go? But if we go, what is our strategy? What is 
our approach? What does this mean?
    I am hoping, to go back to your point about Iran, we can 
leverage regional states. I am skeptical about Iran because we 
have so little luck leveraging them on nuclear weapons. 
Hopefully we can do more in Iraq because they do have an 
interest in stability. But even though they have been 
remarkably calcitrant, I think we should try; I just wouldn't 
count on it.
    Mr. Sestak. I would just make one final closing, on Iran, 
looking back the six years, I would say we outsourced our 
leadership of engaging to it--with it with the European Union 
and Russia and only belatedly have we come to the table.
    Dr. Snyder. Dr. Byman, Mr. Bartlett has one final question, 
then we will let you go.
    Mr. Bartlett. Thank you so much. Thinking only of Iraqis, 
on an average day in Iraq today, is there more or less murder, 
killing and torture than there was under an average day under 
Saddam Hussein?
    Dr. Byman. There is certainly more, if you average out all 
of the crimes of Saddam over the many years he was in power, 
there certainly seems to be more deaths, and certainly when you 
count refugee flows, more going on today. But the scale under 
Saddam was considerable. And you should also add to that not 
necessarily death but a stifling political climate where even 
the barest political activity was prohibited and a cause of 
fear. And in the main parts of Iraq, you have an extremely 
robust political debate. You have freedom in parts of Iraq, and 
that matters as well.
    So I think in terms of--simply in terms of violence, 
especially when you count crime, it is worse today. I don't 
want to make a blanket statement one way or the other on that.
    Mr. Bartlett. I thank you.
    Thank you very much, Mr. Chairman.
    Dr. Snyder. Dr. Byman, we appreciate you being here. We 
appreciate you being willing to be the sole panelist today. 
Thank you so much. Members may have some questions they want to 
submit to you in writing, and if they do, we would appreciate 
you getting back answers in a timely fashion. Thank you so much 
for being here.
    And the committee is adjourned.
    [Whereupon, at 5:44 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 18, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 18, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8757.001
    
    [GRAPHIC] [TIFF OMITTED] T8757.002
    
    [GRAPHIC] [TIFF OMITTED] T8757.003
    
    [GRAPHIC] [TIFF OMITTED] T8757.004
    
    [GRAPHIC] [TIFF OMITTED] T8757.005
    
    [GRAPHIC] [TIFF OMITTED] T8757.006
    
    [GRAPHIC] [TIFF OMITTED] T8757.007
    
    [GRAPHIC] [TIFF OMITTED] T8757.008
    
    [GRAPHIC] [TIFF OMITTED] T8757.009
    
    [GRAPHIC] [TIFF OMITTED] T8757.010
    
    [GRAPHIC] [TIFF OMITTED] T8757.011
    
    [GRAPHIC] [TIFF OMITTED] T8757.012
    
    [GRAPHIC] [TIFF OMITTED] T8757.013
    
    [GRAPHIC] [TIFF OMITTED] T8757.014
    
    [GRAPHIC] [TIFF OMITTED] T8757.015
    
    [GRAPHIC] [TIFF OMITTED] T8757.016
    
                                  <all>

</pre></body></html>
